INVESTIGATIVE MEMORANDUM ON
MANAGEMENT ISSUES
                                                                      September 17,2007

To:    Lori Richards

From: Nelson Egbert     kf@-JkQ
Re:    Requests to registrants for documents (OIG-449)

During an investigation conducted by the Office of Inspector General (OIG-449), we
learned that a regional office did not have written guidance for issuing letters to
registrants when they fail to produce documents requested during examinations. The
need for such guidance was illustrated by an instance we investigated where examination
staff issued a "failure to produce" letter that later was rescinded. The letter contained
language regarding a possible referral to the Division of Enforcement for possible action
against the registrant.

We brought this matter to the attention of the Office of Compliance Inspections and
Examinations (OCIE). We understand that OCIE is now preparing guidance establishing
procedures governing when and how examiners should inform a registrant of the
possibility or fact of an Enforcement referral. These circumstances may include when the
registrant is slow to produce records, the registrant declines to undertake remedial action,
or an Enforcement referral has already been made.

Recommendation A

OCIE should issue written guidance to its staff and regional offices describing the
policies and procedures for informing registrants of a possible or actual referral to
Enforcement.

Recommendation B

OCIE should incorporate the written guidance into its training materials and programs for
examination staff.

cc:    Peter Uhlmann
       Diego Ruiz
       Darlene Pryor
       John Walsh
       Jim Clarkson
       Joan McKown
